March 19, 2020
Scott S. Harris
Clerk of the United State Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Motion to Extend Time to File Brief in Opposition to Petition for a Writ of Certiorari
Takeda Pharmaceutical Company Limited, et al. v. Painters and Allied Trades District
Council 82 Health Care Fund, et al., 19-1069

Dear Mr. Harris:
Pursuant to Rule 30.4, Respondents request a thirty-day extension to file a brief in
opposition to the petition for a writ of certiorari. Respondents’ brief is currently due March 30,
2020. With this extension, the brief would be due on April 30, 2020.
Respondents request this extension because of staffing and printing issues caused by the
COVID-19 pandemic. The pandemic is causing considerable stress on undersigned counsel’s
office, both in the context of ensuring workplace safety and managing workflow.
This is the Respondents’ first request for extension.
Counsel for Petitioners do not oppose this extension. Further, because the case before the
district court is stayed pending resolution of this petition (by agreement), a thirty-day extension
will not materially impact any aspect of the case.
Sincerely,
BAUM HEDLUND ARISTEI & GOLDMAN, P.C.

By:
R. Brent Wisner, Esq.
Counsel for Respondents
cc:

Counsel for Petitioners

